LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 29, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1195:

KANSAS NATURAL RESOURCE COALITION
THE INTERIOR, ET AL.

V.

DEPARTMENT OF

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Judicial Watch,
Inc. and the Allied Educational Foundation on March 29, 2021, I caused service to be
made pursuant to Rule 29 and the Temporary Order of April 15, 2020 on the following
counsel for the Petitioner and Respondents:
PETITIONER:
Jonathan Calvin Wood
Pacific Legal Foundation
3100 Clarendon Blvd., Suite 610
Arlington, VA 22201-5330
202-888-6881
jwood@pacificlegal.org

RESPONDENTS:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing one copy of the Brief of Amici Curiae
Judicial Watch, Inc. and the Allied Educational Foundation in an official “first class
mail” receptacle of the United States Post Office as well as by transmitting a digital
copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 29th day of March 2021.

